HHS/OIG, Audit - "Review of Medicare Payments to iCare Medical Supply for
Home Blood-Glucose Test Strip and Lancet Supplies," (A-09-05-00063)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments to iCare Medical Supply for
Home Blood-Glucose Test Strip and Lancet Supplies," (A-09-05-00063)
January 23, 2008
Complete
Text of Report is available in PDF format (629 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
iCare Medical Supply, Inc. (iCare), did not claim
reimbursement for test strips and lancets in accordance with Medicare
requirements.  Medical reviewers found that none of iCares claims for the 100
sampled beneficiaries met Medicare requirements and that each service line item
on each claim had one or more errors.  These errors
occurred because iCare did not have adequate controls to ensure that test strips
and lancets billed to Medicare were medically necessary and documented in
accordance with Medicare requirements.  As a result,
iCare received $73,040 in unallowable Medicare payments for the 100 sampled
beneficiaries.  Projecting these results to the
population, we estimated that at least $8,233,476 of the $8,664,874 paid to iCare
for test strips and lancets provided in calendar years 2002 and 2003 was
unallowable for Medicare reimbursement.
We recommended that iCare refund $8,233,476 to the Medicare program and work
with the Centers for Medicare & Medicaid Services to determine the allowability
of test strips and lancets billed after calendar year 2003.
In its comments on our draft report, iCare did not address our
recommendations.